                                     News From
                           The Office of Inspector General
                        Corporation For National And Community Service




Ethics Violations Lead To Non-Renewal Of Term Employee
The Corporation for National and Community Service (Corporation) has declined to
renew the appointment of a term employee who was the subject of an Office of Inspector
General (OIG) investigation into ethics violations.
Following the investigation, the employee, whose duties included selecting sites for
training events, admitted to an OIG investigator that he had received free meals from
potential and current contractors. He also admitted to illegally converting a transaction
with a contractor into a personal gain of more than $300.
The Corporation cited the OIG’s findings as one of the factors in its decision not to renew
the employee’s term appointment, which expired at the end of 2004.
Under government ethics rules and Corporation regulations, employees are strictly barred
from receiving free gifts or services from sources with potential or existing contracts with
the Corporation. The ban on gifts from so-called “prohibited sources” is a key element in
the Federal government’s effort to ensure fairness and transparency in the awarding of
contracts.
